OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/HONDURAS’
DEMOCRACY AND
GOVERNANCE PROGRAM
AUDIT REPORT NO. 1-522-09-009-P
JUNE 4, 2009




SAN SALVADOR, EL SALVADOR
Office of Inspector General



June 4, 2009

MEMORANDUM

TO:              USAID/Honduras Mission Director, William Brands
                 USAID/El Salvador Contracting Officer, Wanda M. Henry

FROM:            Regional Inspector General/San Salvador, Timothy E. Cox /s/

SUBJECT:         Audit of USAID/Honduras’ Democracy and Governance Program (Audit
                 Report No. 1-522-09-009-P)

This memorandum is our report on the subject audit. In finalizing the report, we carefully
considered your comments on the draft report and we have included the mission’s
comments in their entirety in appendix II.

The report includes ten recommendations for your action. Based on your comments,
management decisions have been reached for Recommendation Nos. 4 and 7. A
management decision can be recorded for Recommendation Nos. 1, 2, 3, 5, 8, 9 and 10
when USAID/Honduras establishes target dates for completing the planned actions, and
a management decision can be recorded for Recommendation No. 6 can be reached
when the agreement officer has reached a final decision on the amount, if any, to be
recovered from the Federation of Honduran Nongovernmental Organizations.

Determination of final action on the recommendations will be made by the Audit
Performance and Compliance Division (M/CFO/APC).

I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
Tel (503) 2501-2999 - Fax (503) 2228-5459
www.usaid.gov/oig
CONTENTS
Summary Of Results.......................................................................................................1

Background .....................................................................................................................3

Audit Objectives ................................................................................................................6

Audit Findings .................................................................................................................7

Did USAID/Honduras’ Democracy and Governance program achieve
planned results and what has been the impact?............................................................... 7

     The Program’s Transformational Impact Was
     Eroded by a Budget Cut and Other Factors ................................................................ 9

     Increasing Municpal Revenues Without Improving Services Will Not
     Sustainably Improve Governance ............................................................................. 11

     Sustainability of Assistance to Municipalities Is Not Assured ................................... 13

      FOPRIDEH Cost Sharing Is Not Supported ............................................................. 14

     Partners Should Assess Effectiveness of Training………………..……………………15

Did USAID/Honduras' reporting on its democracy and governance program
provide stakeholders with complete and accurate information
on the progress of the activities and the results achieved? ............................................ 16

     Data Reporting Needs to Be Strengthened............................................................... 16

     Performance Management Plan Needs To Be Improved.......................................... 18

Evaluation of Management Comments ....................................................................... 20

Appendix I - Scope and Methodology ........................................................................ 22

Appendix II - Management Comments ....................................................................... 23

Appendix III - Strategic Objective Agreement Indicators and
Results ...........................................................................................................................31

Appendix IV - Planned and Reported Results for
FOPRIDEH for FY 2007 and FY 2008 ........................................................................... 35

Appendix V - Planned and Reported Results for
Decentralization Assistance through MSI .................................................................. 37
Appendix VI - Planned Life of Agreement Results and Reported
Results for FY 2008 for Decentralization Assistance through AMHON ................... 39
SUMMARY OF RESULTS
USAID/Honduras’ democracy and governance program is designed to strengthen the
rule of law through activities that improve the legal framework, increase the justice
sector’s capacity, expand access to justice by traditionally marginalized groups, and
decentralize government resources and authority (page 5).

USAID/Honduras spent $18 million under its democracy and governance program from
October 1, 2004 through September 30, 2008. USAID/Honduras implemented its
democracy and governance program mainly through five contracts and agreements with
Florida International University, Management Systems International, Federation of
Honduran Nongovernmental Organizations (FOPRIDEH), Honduran Association of
Municipalities, and the Consortium for Electoral and Political Processes (page 6).

As part of its fiscal year 2009 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following questions (page 6):

•   Did USAID/Honduras’ democracy and governance program achieve planned results
    and what has been the impact?

•   Did USAID/Honduras’ reporting on its democracy and governance program provide
    stakeholders with complete and accurate information on the progress of the activities
    and the results achieved?

There were gaps in available information on accomplishment of results, but
USAID/Honduras and its partners have helped increase the efficiency of criminal court
procedure, helped strengthen the formal legal framework for the justice system and
citizen access to government information, and helped increase audit coverage of
municipal governments (page 7). The program has been less successful in increasing
self-generated municipal revenues and municipal services (page 12). Also, while nearly
28,000 people have reportedly been trained under the program, training effectiveness
has not been systematically evaluated, and many government employees who received
training will be replaced after the upcoming elections in November 2009 (page 15).
Moreover, program accomplishments have not achieved sufficient scale or magnitude to
positively influence citizen perceptions of the quality of governance (pages 7 and 10).

With respect to the second question, USAID/Honduras provided stakeholders with
complete and accurate information on the progress of the activities and the results
achieved for 32 of 45 items tested from the FY 2007 and FY 2008 performance reports.
The reported information for the remaining 13 items was either inaccurate (11 items) or
did not correspond to the performance indicator definitions (2 items). In addition,
USAID/Honduras did not establish performance targets for the last three years of the
program for three of the six performance indicators in the performance management
plan (PMP), and the PMP had not been updated to incorporate information on actual
results achieved (page 19).

The report recommends that USAID/Honduras:

•   Extend the current democracy and governance program to provide an opportunity to


                                                                                       1
    negotiate the scope of the follow-on program with the administration that will take
    office in January 2010 (page 11).

•   Focus the follow-on program on reforms that have the potential to accomplish
    transformational change in the quality of governance (page 11).

•   Include assistance to improve municipal services in its follow-on program if the
    program includes efforts to increase municipal revenues (page 13).

•   Include support for passage and implementation of the Municipal Civil Service Law in
    its follow-on program (page 14).

•   Ask MSI to make electronic copies of manuals, procedures, and records developed
    in each assisted municipality to be presented to each municipality’s incoming mayor
    after the 2009 election to promote continuity and an orderly transition (page 14).

•   Determine the allowability of $376,856 in unsupported cost-sharing contributions and
    recover from FOPRIDEH any amounts determined to be unallowable (page 15).

•   Verify that FOPRIDEH has a viable plan for meeting required cost-sharing
    contributions during the last year of the program (page 15).

•   Establish procedures for systematically following up with training participants to
    assess the impact and effectiveness of training (page 16).

•   Develop and implement a system to reasonably ensure that reported information is
    accurate (page 19).

•   Develop a performance management plan for the democracy and governance
    program (page 20).

Although USAID/Honduras raised some issues with the findings in our draft report, the
mission generally agreed with the report recommendations.        An evaluation of
management comments is provided on page 20, and USAID/Honduras’ comments in
their entirety are included in appendix II.




                                                                                      2
BACKGROUND
Honduras is one of the poorest countries in Central America, whether poverty is
measured against the local poverty line (51 percent, second highest in the region), the
$2/day poverty line (35 percent, highest in the region), or the $1.25/day extreme poverty
line (22 percent, highest in the region). Social indicators are low, with male/female life
expectancy at birth of 66/73 years, the lowest in the Central American region; the
second highest percentage of the population in the region not using an improved water
source; and the second highest percentage of underweight children under the age of 5in
the region. 1 Crime is also a serious issue: a recent study found that security costs and
losses due to crime absorbed nearly 10 percent of gross domestic product (GDP) in
Honduras. 2

The country is an electoral democracy, but it faces serious challenges with respect to the
quality of governance. Honduras is expected to hold its eighth consecutive presidential,
congressional, and municipal elections in November 2009. An electoral reform
approved in 2004, with USAID assistance, allows citizens to vote for individual
congressional candidates and split their votes between parties, rather than simply voting
for a party list of candidates. This reform is thought to make members of Congress more
accountable to constituents and less dependent on party leaders.

On the other hand, government corruption and inefficiency are serious problems.
Honduras is currently ranked 126th out of 180 countries included in Transparency
International’s Corruption Perceptions Index. In 2006, Honduras fell below the median
for all low-income countries on the World Bank’s control of corruption indicator, thus
failing to meet one of the criteria for eligibility for assistance from the Millennium
Challenge Corporation, which has signed a compact with the Government of Honduras.
Although in 2007 Honduras rose above the median, and the Government of Honduras
implemented a remediation plan negotiated with the Millennium Challenge Corporation,
Honduras fell below the median again in 2008. Still, according to surveys by the Latin
American Public Opinion Project, the percentage of Hondurans who think that their
government is fighting corruption declined from 40 percent in 2004 to 30 percent in
2008.

Beyond the corruption issue, government effectiveness is severely constrained by a lack
of resources, low levels of educational attainment, and the absence of a professional
civil service. 3

In 2008, Honduras scored the third lowest of 20 countries in the Latin America and
Caribbean region surveyed with respect to interpersonal trust, a measure of social
capital, according to the Latin American Public Opinion Project. Public support for
democracy was lower in Honduras than in any other country surveyed, and Honduras
was the third lowest country with respect to political tolerance.
1
    These data are from the United Nations Development Program, “Human Development Indices:
    A Statistical Update 2008” and the World Bank’s EdStats database.
2
    Carlos Acevedo and the Consejo Nacional de Seguridad Publica, “Los costos económicos de
    la violencia en Centroamérica” (2008).
3
    Management Systems International and USAID, “Honduras Corruption Assessment Report
    (October 2008).


                                                                                         3
The World Bank’s governance indicators for Honduras are presented in figure 1.

Figure 1. World Bank Governance Indicators, 1996–2007 4

                          V o i ce and A cco unt ab il it y                                              Po l it i cal St ab i li t y
      0.4                                                                       0.6

      0.3                                                                       0.4
      0.2                                                                       0.2
      0.1
                                                                                  0
       0                                                                               1996   1998    2000     2002     2003    2004      2005   2006   2007
                                                                                -0.2
            1996   1998     2000     2002   2003    2004   2005   2006   2007
     -0.1
                                                                                -0.4
     -0.2
                                                                                -0.6
     -0.3
                                                                                -0.8
     -0.4

     -0.5                                                                        -1

     -0.6                                                                       -1.2

     -0.7                                                                       -1.4




                          G o ver nment Ef f ect iveness                                                R eg ul at o r y Q uali t y
       0                                                                        0.6
            1996   1998      2000    2002   2003    2004   2005   2006   2007
     -0.2                                                                       0.4

                                                                                0.2
     -0.4

                                                                                  0
     -0.6                                                                              1996   1998    2000     2002     2003    2004      2005   2006   2007
                                                                                -0.2
     -0.8
                                                                                -0.4
       -1
                                                                                -0.6

     -1.2
                                                                                -0.8

     -1.4                                                                        -1

     -1.6                                                                       -1.2




                                    R ule o f Law                                                    C o nt r o l o f C o r r up t io n
       0                                                                          0
            1996   1998     2000     2002   2003    2004   2005   2006   2007          1996   1998    2000     2002     2003    2004      2005   2006   2007
     -0.2                                                                       -0.2


                                                                                -0.4
     -0.4

                                                                                -0.6
     -0.6
                                                                                -0.8
     -0.8
                                                                                 -1

       -1
                                                                                -1.2

     -1.2                                                                       -1.4


     -1.4                                                                       -1.6




The point estimates above show mixed trends, with improvement in four indicators and
deterioration in two indicators from 1996 through 2007. However, none of the changes
from 1996 to 2007 are statistically significant.

4
    The World Bank scales these scores so that the median score for all countries is 0 and
    essentially all scores fall between 2.5 (best) and -2.5 (worst). The 95 percent confidence
    interval is indicated by dotted lines.


                                                                                                                                                               4
Surveys conducted by the Latin America Public Opinion Project from 2004 through 2008
show declining confidence in public institutions (Figure 2)

Figure 2. Confidence in Public Institutions, 2004 – 2008
    60%




                                  Municipal government
    55%




    50%

                   Supreme court
                                              Congress
            Supreme audit institution
            (TSC)
    45%


                                  Elections


    40%




    35%
                               2004                                         2006                      2008

          Source: Americas Barometer surveys conducted by the Latin America Public Opinion Project.



The latest survey concludes that, because of the low legitimacy of public institutions and
low political tolerance, Honduras is the democracy second most at risk, after Haiti, of 20
countries in the Latin America and Caribbean region.

USAID’s country strategy for FY 2003 – FY 2008, which is still in effect, expressed
optimism that Honduras could build on a successful reconstruction experience after
Hurricane Mitch in 1998 to undertake more profound political and economic
transformations. The democracy and governance program focuses on (1) strengthening
the rule of law through activities that improve the legal framework and (2) supporting
decentralization of resources from the national government to municipal governments,
along with improved transparency and accountability at the municipal level.

USAID/Honduras implemented its democracy and governance program mainly through
five contracts and agreements:

•         Management Systems International (MSI) was awarded a $9.3 million contract that is
          in effect from October 1, 2004 to March 31, 2009. The program includes activities to
          promote transparency and citizen participation in targeted municipalities; to improve
          revenue collection, service coverage, and performance of municipal government
          core functions; and to assist the Association of Honduran Municipalities (AMHON),
          the Government of Honduras’ supreme audit institution, the Tribunal Superior de
          Cuentas, and chambers of commerce.

•         The Federation of Honduran Nongovernmental Organizations (FOPRIDEH) was
          awarded a $3.7 million cooperative agreement that runs from October 1, 2005 to
          September 30, 2009. The agreement provides resources to support five results: (1)
          sustained justice sector reform, (2) free, fair and credible elections, (3) increased
          pluralism in the electoral process, (4) strengthened public influence over national




                                                                                                             5
    anti-corruption policy, and (5) facilitation and consolidation of national networks of
    nongovernmental organizations involved in governance issues.

•   A $0.6 million cooperative agreement with Honduran Association of Municipalities
    (AMHON) in effect from August 13, 2007 and ending September 30, 2009. The
    purpose of the program is to strengthen local governments’ capacity to meet citizen
    needs through fiscal, legal and administrative reforms.

•   Florida International University (FIU) was awarded a $4.2 million contract that was in
    effect from September 10, 2004 to November 30, 2007. The program was designed
    to accomplish five main objectives: (1) a new criminal procedures code effectively
    implemented; 2) an independent, apolitical and effective judiciary established; 3) an
    independent, apolitical, and effective Public Ministry established; 4) broader civil society
    participation in justice sector reforms and monitoring; and 5) a changed mind set
    regarding the rule of law in the courts, in universities, and elsewhere.

•   The Consortium for Electoral and Political Processes (CEPPS) was awarded a $1.8
    million cooperative agreement that is in effect from September 30, 2008 to January
    30, 2010. The purpose of the agreement is to provide technical assistance to (1) the
    Tribunal Superior Electoral (TSE) to effectively and transparently carry out its new
    decentralized vote management responsibilities and to mitigate allegations of fraud;
    and (2) and civil society organizations to provide oversight through campaign finance
    monitoring, domestic election observation, and parallel vote tabulation. CEPPS
    activities were not included in the scope of the audit because program activities did
    not begin until FY 2009.

As of September 30, 2008, USAID/Honduras has obligated $23 million and disbursed
$18 million for its democracy and governance activities. The total estimated USAID
contribution to the program is $29.5 million.

AUDIT OBJECTIVES
As part of its fiscal year 2009 annual plan, Regional Inspector General/San Salvador
carried out an audit of USAID/Honduras’ Democracy and Governance activities. The
audit was designed to answer the following questions:

•   Did USAID/Honduras’ democracy and governance program achieve planned results
    and what has been the impact?

•   Did USAID/Honduras’ reporting on its democracy and governance program provide
    stakeholders with complete and accurate information on the progress of the activities
    and the results achieved?

The audit’s scope and methodology are described in Appendix I.




                                                                                              6
AUDIT FINDINGS
Did USAID/Honduras’ democracy and governance program
achieve planned results and what has been the impact?
There were gaps in available information on accomplishment of results, but
USAID/Honduras and its partners have helped increase the efficiency of criminal court
procedure, helped strengthen the formal legal framework for the justice system and
citizen access to government information, and helped increase audit coverage of
municipal governments. USAID/Honduras and its partners have had less success in
increasing self-generated municipal revenues and municipal services. Also, while nearly
28,000 people have reportedly been trained under the program, training effectiveness
has not been systematically tracked, and many government employees who received
training will be replaced after the upcoming elections in November 2009. Moreover,
program accomplishments have not achieved sufficient scale or magnitude to positively
influence citizen perceptions of the quality of governance, as indicated by the results of
surveys discussed in the background section above.

Appendix III presents the performance indicators from the strategic objective agreement
with the Government of Honduras, performance targets where targets were established,
and the actual results achieved. (Note that in six cases the latest available information is
from FY 2006 or FY 2007. Also, 14 performance indicators were not tracked by the
mission or its partners.)

Because information was not available for many of the performance indicators in the
strategic objective agreement, we also examined results that were reported by
USAID/Honduras through annual results reports and by individual implementing partners
in their progress reports to USAID/Honduras. We also interviewed program participants
and considered the results of previous evaluations and assessments in reaching
conclusions about the quality of implementation and impact of program activities.

Under the operational plans and results reports for FY 2007 and FY 2008,
USAID/Honduras set targets and reported on 13 output indicators. However, these
indicators focused mainly on the level of activity under the democracy and governance
program (e.g., numbers of people trained and numbers of organizations participating in
program activities) and were not particularly well suited to be used to measure the
program’s effectiveness. The following sections present planned and actual outputs (and
higher-level results where information was available) achieved in each area of the
democracy and governance program, together with remarks on the program’s impact
where appropriate.

Rule of Law Strengthening – Assistance on rule of law activities was provided through
a contract with Florida International University (FIU) and a cooperative agreement with
the Federation of Honduran Nongovernmental Organizations (FOPRIDEH).

Through the contract with FIU, which ended in November 2007, USAID/Honduras
helped implement a reformed criminal procedures code, supported training for a
reported 3,068 people, and established seven alternative dispute resolution centers.



                                                                                          7
FIU also provided analysis and support for drafting of a new Civil Procedures Code,
Judicial Council and Judicial Career Law, the Organic Law of the Judicial Branch, and a
reform of the Criminal Process Code that provides for oral trials in appeals. Because
FIU had left Honduras by the time of our audit, we did not audit the results it achieved,
although we did discuss the FIU program with several stakeholders.

Through FOPRIDEH, FOPRIDEH’s member organizations, and alliances like the Alianza
de Justicia and Movimiento Civico, USAID/Honduras has influenced positive changes in
the legal framework for elections and the court system:

•   A reformed process for nominating Supreme Court magistrates. The reformed
    process, first used in 2002 and used for the second time in 2009, provides for a
    nominating committee, with civil society participation, that vets nominees to the
    Supreme Court. This reform vastly increases the transparency of the nomination
    process. Moreover, conclusion of a successful nomination and selection process in
    2009 illustrated the positive impact of many other reforms supported by USAID and
    its partners in recent years, including the nomination process itself, direct election of
    members of Congress, and support to civil society organizations to defend against
    attempts to roll back reforms.

•   Passage of a reformed civil procedure code in 2007 that will enter into effect in May
    2009. FIU also contributed to passage of this law.

•   Passage of a Transparency and Access to Public Information Law in November
    2006.

FOPRIDEH also lobbied for a code of ethics for government employees that was
adopted in 2007, a Judicial Council Law and an Organic Law for the Judicial Branch, and
campaign finance reform.

FOPRIDEH prepares annual themed corruption reports that have described delays in
processing corruption cases and other issues. Through the corruption report and other
awareness activities, FOPRIDEH and its partners have helped harden public attitudes
against corruption. While we are not aware of any polling that would demonstrate
decreased tolerance of corruption, the previously mentioned successful nomination and
selection process for Supreme Court magistrates was a strong indication of decreased
tolerance, and FOPRIDEH’s success in mobilizing civil society organizations might also
be taken as an indication of decreased tolerance of corruption.

The performance indicators from the cooperative agreement with FOPRIDEH and the
actual results achieved by FOPRIDEH are compared in appendix IV. No performance
targets (expected levels of performance) were set for eight of the performance
indicators, and FOPRIDEH did not carry out any activities related to most of the
indicators. Instead, USAID/Honduras informally agreed with FOPRIDEH’s management
that FOPRIDEH should devote most of its efforts to monitoring the process for Supreme
Court nominations and other topical issues.

Decentralization Assistance – Management Sciences International (MSI) and the
Honduran Association of Municipalities (AMHON) are implementing decentralization
activities.



                                                                                           8
MSI has achieved significant results in assisted municipalities by introducing
transparency commissions and other practices to promote transparency, opportunities
for citizen participation, and improved administration and financial management. The
opening of deliberative processes to citizen participation is perhaps the greatest
accomplishment in the assisted municipalities. The contract performance indicators,
targets, and results are provided in appendix V.

During the first year of its agreement with USAID/Honduras, AMHON has taken
significant steps to decentralize resources and authorities to municipalities:

•   AMHON has begun providing training to municipalities to strengthen administration in
    areas like budgeting, accounting, land titling, and taxation.

•   AMHON drafted a new Municipal Law that would increase mandated transfers to
    municipalities from 5 percent to 12.5 percent of the national budget, better define
    municipal authorities, institutionalize municipal transparency commissions, and make
    other changes. AMHON presented the draft law to Congress and supported the bill
    in meetings with a congressional commission that has reviewed the legislation and is
    preparing a report for the consideration of the Congress in plenary session.

•   AMHON also drafted a Civil Service Law for Municipalities that would provide for a
    more professional corps of municipal employees and establish continuity. By
    establishing continuity, passage of this law or a similar one should assist efforts to
    build institutions and increase skills over time at the municipal level.

•   AMHON has worked with the Tribunal Superior de Cuentas to ensure that
    municipalities present required financial reports to the Tribunal. Prior to the signing
    of the current agreement with USAID/Honduras, AMHON also worked with the
    Tribunal to reach agreements on procedures and criteria to be used in audits of
    municipal governments.

AMHON performance indicators, targets, and results are provided in appendix VI.

Assistance to the Tribunal Superior de Cuentas – USAID/Honduras has helped the
Tribunal Superior de Cuentas greatly expand its audit coverage of municipal
governments, reportedly reducing the audit cycle from 13 years to 3 years. USAID
assistance helped equip the Directorate of Municipal Audits and a second office in the
Tribunal that audits programs with external financing. The mission also helped develop
and pilot test training materials that were later used by the Tribunal to train municipal
governments in fraud prevention and other administrative and accounting matters.

While USAID/Honduras’ democracy and governance program has made progress in
several important areas, management actions by USAID/Honduras are needed to help
resolve several issues. These issues are discussed in the following sections.

The Program’s Transformational Impact Was
Eroded by a Budget Cut and Other Factors
Summary: USAID programs, in conjunction with other donor programs and host
countries’ own efforts, are expected to help countries move through transformational


                                                                                         9
developmental processes during foreseeable timeframes. The strategy for the
democracy and governance program clearly communicated an intention to influence
transformational change but, during implementation of the program, a budget reduction
and other factors led the mission to scale back the scope of the program and the results
it was intended to influence. Thus, rule of law activities shifted away from application of
the law toward improving the laws themselves, and decentralization activities were more
tightly focused on administration and transparency issues rather than also including
improvements to municipal services.

The State-USAID foreign assistance framework establishes an expectation that USAID
programs will support transformational diplomacy: that is, USAID programs, in
conjunction with other donor programs and host countries’ own efforts, will help move
countries through a development process that ultimately leads to their graduation from
the U.S. foreign assistance program. 5 While transformational changes are not expected
to take place in the short term, they are expected to take place within some foreseeable
time horizon.

USAID/Honduras’ strategy for the democracy and governance program, which predated
the foreign assistance framework by several years, had a clear transformational intent.
It stated that “This is a critical transition period for Honduras, which is moving from
hurricane reconstruction to a fundamental transformation of its economic and political
policies and institutions. This transformation is essential for Honduras to fully participate
in the global economy and improve its chances to attract the trade and international
investment it needs for sustained economic growth.” The strategy expected to influence
“major reforms” that would reduce corruption, increase security, and increase delivery of
public services.

Since the strategy was developed in 2003, however, the intention to influence
transformational change has been moderated somewhat by changed circumstances. In
the rule of law area, the emphasis shifted slightly away from making the court system
work more efficiently to improving the formal legal framework. In the decentralization
area, the original intent was to increase the resources available to municipalities,
improve municipal administration, and increase the level of services provided by
municipal governments. However, the scope of this assistance was subsequently
narrowed to exclude the objective of improving service delivery.

The scope of the program was reduced because of budget reductions and difficulties
encountered during implementation of the program. Budget cuts of $5.6 million (about
19 percent of the planned USAID contribution to the program, or 14 percent of total
program resources) were a tangible and immediate influence on mission decisions to
reduce the scope of the rule of law activities. Budget cuts may also have influenced the
decision to reduce the scope of assistance to municipalities, but this decision was
primarily based on a judgment by the contractor that significantly improving municipal
services would not be feasible in some cases and in other cases would require a more
expensive and sustained effort than it could provide. Parallel to these developments,

5
    The foreign assistance framework describes a development continuum that includes rebuilding
    countries, developing countries, transforming countries, and sustaining partnership countries.
    Honduras is classified as a transforming country: it is a low income country that meets the
    criteria for eligibility for assistance from the Millennium Challenge Corporation (MCC), and it
    specifically meets the MCC criterion for political rights.


                                                                                                10
political will to improve the quality of governance has arguably weakened.

Because rule of law activities were curtailed in 2006, program activities have shifted from
implementing improved legal procedures (i.e., complying with laws) to improving the
formal institutional framework (i.e., passing new laws). This is not to say that that the
program had no impacts in the former area. FIU reportedly trained 2,804 lawyers,
professors, law students, and court employees, in addition to “training for trainers” that
reached another 264 people. However, with the exception of the number of oral trials,
which increased from 481 in FY 2005 to 1,149 in FY 2006, available caseload and case
disposition statistics do not show large improvements in efficiency. FIU also provided
assistance to establish alternative dispute resolution centers in seven municipalities,
helping make the justice system more accessible.

Because the scope of assistance to municipalities was reduced, essentially no efforts
have been made to help improve municipal services and there is no evidence that
municipal services have in fact improved as a result of USAID assistance. While polling
by the Latin American Public Opinion Project shows that citizen satisfaction with
municipal governments is slightly higher than satisfaction with central government
institutions, satisfaction with municipal governments is low and actually decreased from
2004 through 2008.

The budget picture has since improved, according to a USAID/Honduras official, with a
Congressional Budget Justification level for FY 2009 of $9.6 million representing nearly
a threefold increase over the FY 2008 level. 6 However, with Honduran presidential
elections scheduled for November 2009, this is not a particularly opportune time to
negotiate a new program or a significant expansion of the current program.

     Recommendation No 1: We recommend that USAID/Honduras extend the
     current democracy and governance program to provide an opportunity to
     negotiate the scope of the follow-on program with the administration that will take
     office in January 2010.

     Recommendation No 2: We recommend that USAID/Honduras explicitly focus
     the follow-on program on reforms that have the potential to accomplish
     transformational change in the quality of governance.

Increasing Municipal Revenues Without Improving
Services Will Not Sustainably Improve Governance

Summary: One of the 14 performance indicators under MSI’s contract dealt with assisting
10 smaller municipalities in improving tax revenues and services. Although MSI was
successful in increasing tax revenues, at least in 2007, MSI did little work to improve
services and acknowledged as much. This was because, in MSI’s judgment, the increased
revenues for the smaller municipalities were not large enough to support improved services.
Without a corresponding increase or improvement in services, increased local tax

6
    In its comments on our draft audit report, USAID/Honduras stated that the anticipated FY 2009
    budget level of $9.6 million has since been reduced to $4.5 million. The mission’s planning
    budget for FY 2010 is $11.9 million, with a similar amount for FY 2011, but these amounts
    have not been approved.


                                                                                              11
revenues are unlikely to improve the quality of governance or confidence in municipal
governments.

One of the 14 performance indicators in under MSI’s contract dealt with assisting ten smaller
municipal governments in increasing local revenue collection according its agreement. This
was to be accompanied by increased transparency and an increase in services.
Municipalities were to show measurable improvements in the capacity to deliver services
effectively and efficiently by the end of the performance period.

MSI was able to help all 10 municipalities increase tax revenues in 2007, but revenues fell
for 8 of the 10 municipalities in 2008. (We were told that tax compliance deteriorates before
an election as citizens calculate that mayors cannot afford to offend voters by rigorously
enforcing tax laws.)

Table 1: Increase in Local Tax Revenue7

           Municipality              2007 Local Tax Revenue           2008 Local Tax Revenue
                                       Increase (Decrease)              Increase (Decrease)
La Masica                                      4%                                6%
Traulabe                                      18%                               10%
San Nicolas                                   13%                               (2%)
Pimienta                                      29%                              (16%)
San Francisco de Yojoa                        13%                               (7%)
Sabanagrande                                   2%                              (11%)
Villa de San Francisco                        36%                               (9%)
Naranjito                                     45%                              (15%)
San Agustin                                   58%                              (14%)
Yamaranguila                                  36%                              (22%)

However, little or nothing was done to improve services in these municipalities (or in any of
the municipalities assisted by MSI).

Without a corresponding increase or improvement in services, increased local tax
revenues are unlikely to improve the quality of governance or confidence in municipal
governments. (As previously indicated, polling by the Latin American Public Opinion
Project shows that confidence in municipal governments in Honduras has actually
decreased during the program.) In the extreme, increased revenues in the absence of
increased services may amount to nothing more than an income transfer from citizens to
government officials. During the project, MSI officials and a chamber of commerce
official indicated that one municipality proposed a $3,000 per year salary increase for the
members of the municipal council. In this municipality, civil society officials indicated
that 70 percent of the municipal budget went to pay salaries. In addition, MSI officials
believe that gains in tax collection are unlikely to be sustainable without a commensurate
improvement in services.

Program participants and beneficiaries agree that it is harder to improve services than it
is to increase revenues. In smaller municipalities even an increased level of local tax
revenues may not permit a high level of service delivery. In larger municipalities, MSI

7
    The percentages shown are real (after inflation) increases or decreases.


                                                                                           12
and municipal officials said that improving services would require a more sustained effort
than they were able to provide. However, other individuals in chambers of commerce
and civil society indicated that certain services such as issuance of business permits or
other licenses can be improved and increased without a large amount of money or
technical assistance. This can be seen with the example of the development of a single
service window in Villanueva that has decreased the time it takes for a business permit
to be issued from over a month to 1 week. According to MSI’s Chief of Party, other
services that can be improved in municipalities with relatively little effort include clinics,
public markets, and facilities for slaughtering livestock.

     Recommendation No. 3:          We recommend that USAID/Honduras include
     assistance to improve municipal services in its follow-on program if the program
     includes efforts to increase municipal revenues.

Sustainability of Assistance to
Municipalities Is Not Assured
Summary: According to USAID policy, sustainable development requires building lasting
capacity to respond to changing circumstances, new needs, and evolving opportunities.
However, the value of much of the training and technical assistance provided by MSI to
municipalities will be lost after the November 2009 elections. This will occur because
Honduras does not have a civil service law to insulate municipal employees from
partisan pressures. The lack of employment security for trained municipal employees
compromises the long-term benefits of USAID’s programs.

According to USAID's Strategy for Sustainable Development, development is sustainable
when it permanently enhances the capacity of a society to improve its quality of life.
According to USAID’s Guidelines for Strategic Plans, sustainable development requires
building lasting capacity to respond to changing circumstances, new needs, and evolving
opportunities. USAID strategies must show how results can be sustained, including human
capacities and prospects for institutional, political, and financial sustainability over the long
term.

The value of much of the training and technical assistance provided by MSI to
municipalities will be lost after the November 2009 elections, because municipal
employees are typically replaced by incoming mayors. According to MSI survey, 52
percent of municipal employees were replaced after the 2005 elections. 8

AMHON is currently working with Honduras government officials, mayors, and civil
society organizations and has drafted a municipal civil service law, although this activity
is not specified in the cooperative agreement. MSI has, however, taken some steps to
make assistance more sustainable and replicable by preparing a series of procedure
manuals, some of which will be published by AMHON and distributed to municipalities
that have not been assisted directly by MSI.



8
    According to MSI officials, municipalities assisted by MSI that were included in the sample,
    only 38 percent of employees were replaced. However, this lower percentage was not related
    to MSI assistance activities, as MSI had not provided significant services to the municipalities
    at the time of the survey.


                                                                                                 13
Municipal employees have no civil service protections and serve essentially at the
pleasure of the mayors who appoint them. The resulting lack of sustainability of
improved practices impedes achievement of the program’s objectives. Since the follow-
on program will include support to municipal governments, probably focusing on
expansion of municipal services, the problem will in all likelihood affect the follow-on
program as well.

     Recommendation No. 4: We recommend that USAID include steps to support
     passage and implementation of the Municipal Civil Service Law in its follow-on
     program.

     Recommendation No. 5:             We recommend that USAID/Honduras ask
     Management Systems International to make electronic copies of manuals,
     procedures, and records developed in each assisted municipality to be presented
     to each municipality’s incoming mayor after the 2009 election to promote
     continuity and an orderly transition.

FOPRIDEH Cost Sharing
Is Not Supported

Summary: The Federation of Honduran Nongovernmental Organizations (FOPRIDEH)
is required to provide at least $932,458 as cost-sharing contributions to the program
supported by USAID. However, FOPRIDEH’s reported contributions of $376,856 as of
September 2008 can not be verified from FOPRIDEH’s records, and given that 3 years
of the 4-year program have already passed, it is unclear whether FOPRIDEH will meet
the required cost-sharing contribution. While USAID/Honduras had arranged to have the
cost-sharing contributions reviewed by a public accounting firm, the most recent report
completed by the firm covered 2006, so the mission did not have timely information to
help it monitor cost sharing contributions. The program’s objective will likely be adversely
affected without the required FOPRIDEH contributions.

According to FOPRIDEH’s cooperative agreement with USAID, the organization was to
expend $932,458 as cost sharing. According to 22 CFR § 226.23, which was incorporated
by reference into FOPRIDEH’s agreement, cost sharing must be verifiable from the
recipient’s records and must be necessary and reasonable for proper accomplishment of the
project or program objectives.

FOPRIDEH’s reported cost-sharing contributions as of the end of FY 2008, totaling
$376,856, 9 were not verifiable from its records.      While FOPRIDEH maintained
spreadsheets detailing estimates used to report cost sharing, mostly from third parties,
there was essentially no supporting documentation to substantiate contributions
consisting of expenses such as salaries, per diem expenses, refreshments, and rental of
meeting rooms. In addition, in some cases, the available information was insufficient to
determine whether the expenses were eligible as cost-sharing contributions.

Moreover, reported contributions as of September 30, 2008 totaled 40 percent of the
required amount, while 75 percent of the 4-year program period had passed. To meet its
required cost sharing contribution, FOPRIDEH will have to contribute $555,602 in the final

9
    Based on an exchange rate of 18.9 Honduran Lempiras to $1.


                                                                                         14
year of the project.

Although mission personnel did track the implementing partners’ total cost-share
contributions, and the mission and FOPRIDEH arranged to have the contributions
reviewed by a public accounting firm, the most recent report the firm had completed at
the time of our audit covered 2006. Thus, the mission did not have timely information to
help it monitor FOPRIDEH’s contributions.

If required contributions are not made, achievement of the program’s objectives will likely
be adversely affected, as 25 percent of total program resources come from FOPRIDEH’s
contributions.

    Recommendation No. 6: We recommend that USAID/Honduras determine the
    allowability of $376,856 in unsupported cost-sharing contributions and recover
    from the Federation of Honduran Nongovernmental Organizations any amounts
    determined to be unallowable.

    Recommendation No. 7: We recommend that USAID/Honduras verify that the
    Federation of Honduran Nongovernmental Organizations has a viable plan for
    meeting required cost-sharing contributions during the last year of the program.

Partners Should Assess
Effectiveness of Training
Summary: Automated Directives System (ADS) 203.3.2 states that USAID operating units
are responsible for establishing systems to measure progress towards intended objectives.
However, USAID/Honduras’ implementing partners, MSI and FOPRIDEH, have not
developed systems for evaluating the effectiveness of the training they provide to
participants. This was not done because the development of a formal training evaluation
system was not considered during the design stage of the training. Without some type of
assessment of the effectiveness of training, USAID and its partners do not know if the
training programs are having the desired impact or could be better tailored to the needs of
the participants.

Training is a major part of the assistance provided through USAID/Honduras’ democracy
and governance program. According to ADS 203.3.2, operating units are responsible for
establishing systems to measure progress toward intended objectives. According to ADS
253, Training for Development, training sponsors are encouraged to consider the broader
operational context in which the participant’s newly acquired skills, knowledge, and attitudes
will be applied. It is common practice to use participant questionnaires, pre-tests and post-
tests, or similar instruments to assess the effectiveness of shorter training classes and
presentations. For more expensive longer-term training, more sustained follow-up may be
justified to ensure that training is being applied on the job and that any obstacles can be
addressed in future training classes.

In FY 2007 and FY 2008, MSI and FOPRIDEH reported training 27,869 people in the areas
of elections, political processes, anti-corruption, management skills, fiscal management,
decentralization, and legislative functions and processes. However, MSI and FOPRIDEH
have not developed systems for evaluating the effectiveness of the training they provide to
participants.


                                                                                           15
The impact of training was not formally assessed because the development of a formal
training evaluation system was not considered by USAID/Honduras or its implementing
partners during the design stage of the training.

As a result, USAID/Honduras and its partners do not know if their training programs are
having the desired impact or could be better tailored to the needs of the participants.
Assessing the impact of training may yield greater returns on training investments and
provide management better information to determine future training needs.

    Recommendation No. 8: We recommend that USAID/Honduras, in coordination
    with its implementing partners, establish procedures for systematically following
    up with training participants to assess the impact and effectiveness of training.

Did USAID/Honduras’ reporting on its democracy and
governance program provide stakeholders with complete and
accurate information on the progress of the activities and the
results achieved?
For 32 of 45 items tested from the FY 2007 and FY 2008 performance reports,
USAID/Honduras’ reporting on its democracy and governance program provided
stakeholders with complete and accurate information on the progress of the activities
and the results achieved. For the remaining 13 items, the reported information was
either inaccurate (11 items) or did not correspond to the performance indicator
definitions (2 items).

The reporting problems we found are discussed in the following section.

Data Reporting Needs
to Be Strengthened
Summary: ADS 203.3.5.1 requires that performance data meet the five data quality
standards of validity, integrity, precision, reliability, and timeliness. USAID/Honduras did
not accurately reflect the program’s performance and enable management to make
appropriate decisions. These inaccuracies occurred because the data reported by the
implementing partners were not verified by USAID/Honduras, and the mission does not
maintain an “audit trail” between reported information and source documents. Therefore,
some inaccuracies in reporting went unnoticed by USAID/Honduras. When data is not
verified, there is a risk that inaccurate information will be used to inform or make
decisions about the program.

USAID policy on performance reporting is extensive and includes the following
provisions:

•   ADS 203.3.5.1 requires that performance data meet the five data quality standards of
    validity, integrity, precision, reliability, and timeliness. Behind these standards is the
    idea that data should accurately reflect the program’s performance and enable
    management to make appropriate decisions based on the reported data. Some of



                                                                                           16
    the results reported by USAID/Honduras and its implementing partners did not
    accurately reflect actual performance.

•   USAID guidance, TIPS 12, Guidelines for Indicator and Data Quality, states that
    even valid indicators have little value if the data collected do not correctly measure
    the variable or characteristic encompassed by the indicator. TIPS 12 also
    emphasizes the importance of documentation to maintenance of quality performance
    indicators and data.

•   Additional guidance is provided in USAID’s Guidebook for Managers and Cognizant
    Technical Officers (CTOs) on USAID Acquisition and Assistance, which states that
    CTOs are responsible for ensuring the accuracy of all reports submitted by their
    implementing partners.

Eleven items in the performance reports for FY 2007 and FY 2008 were inaccurate.
Some examples include the following:

•   USAID/Honduras reported in its FY 2007 Performance Report that technical
    assistance was provided to three municipalities and local chambers of commerce to
    help reduce red tape and petty corruption in applications for business licenses and
    construction permits. According to USAID, this reduced the processing time in one
    municipality from 3 months to 3 days. However, the implementing partner was only
    working with two municipalities, and as of the end of FY 2007, no results were
    achieved. During FY 2008 only one of the municipalities was able to reduce the
    processing time for business or construction permits.

•   USAID/Honduras reported in its FY 2007 Performance Report that it provided
    technical assistance to 31 of Honduras’ 298 municipal governments, enabling local
    authorities to improve basic administration and finance, planning, budgeting, tax
    management. However, the implementing partner’s records shows that only 19
    municipalities received technical assistance in FY 2007. In addition, several of the
    municipalities were not trained in all of the areas listed.

•   In its FY 2008 performance report, USAID/Honduras reported that it helped
    strengthen the capacity of all 298 municipalities in Honduras to act in a more
    responsive, transparent manner. However, USAID/Honduras and its partner (MSI)
    only provided direct assistance to 31 municipalities. USAID/Honduras did fund the
    publication of a transparency booklet through MSI, and these booklets were given to
    AMHON for distribution to all of the municipalities. Still, it is not correct to equate the
    publication of a booklet with capacity building activities.

•   USAID/Honduras reported in its FY 2008 performance report that technical
    assistance and training were provided directly to 24 local governments and indirectly
    to 34 local governments through associations of municipalities. However, according
    to the implementing partner’s records a total of 38 municipalities were assisted, 20
    received direct assistance and only 18 municipalities received indirect assistance,
    and there is no supporting documentation to show that even these 18 municipalities
    were reached.




                                                                                            17
•   USAID/Honduras reported that 56 anti-corruption measures were implemented in FY
    2008. However, the implementing partner’s supporting documentation shows that
    only 26 measures were implemented by the end of FY 2008.

For two results reported in the performance reports for FY 2007 and FY 2008, the results
reported did not meet the definition of the indicator provided by the State Department’s F
Bureau. These were the following:

•   Number of sub-national government entities receiving U.S. Government (USG)
    assistance to improve their performance - According to the definition of this
    indicator, performance is measured by the quality of delivery of services.
    USAID/Honduras reported that 19 and 58 local governments received USG
    assistance to improve their performance in FY2007 and FY 2008, respectively.
    While all of the municipalities reported under this indicator received technical
    assistance in administration, only 4 out of 19 municipalities in FY 2007 and no
    municipalities in FY 2008 received technical assistance to improve service delivery.

•   Number of people affiliated with non-governmental organizations (NGOs) receiving
    USG supported anti-corruption training - The mission reported that 500 and 1,170
    individuals received anti-corruption training in FY 2007 and FY 2008, respectively.
    According to the implementing partner’s records, the training provided was aimed at
    citizens of the targeted municipalities, and there is no evidence that these citizens
    are affiliated with an NGO as the indicator definition requires.

The cases above deal with inaccuracies or ambiguities in USAID/Honduras’ reporting to
its stakeholders. In addition, two inconsistencies were found at a lower level, in partners’
reporting to USAID/Honduras:

•   MSI used prior year data to report on municipal tax revenue but did not disclose that
    the data were from the previous year. For example, in reporting on revenue
    increases for 2007, MSI used 2006 information, and a similar situation existed in
    2008. MSI used prior year information because current information was not available
    when it sent its reports to USAID/Honduras, but it would have been appropriate to
    disclose that the data were for an earlier period.

•   FOPRIDEH reported identical training results for FY 2007 and FY 2008. It could not
    be readily determined which reported result was accurate and which was in error.

These inaccuracies occurred because the data reported by implementing partners was
not verified by USAID/Honduras, and the mission does not maintain an “audit trail”
between reported information and source documents.

When data are not verified, a risk exists that managers or stakeholders will reach
conclusions about the program based on inaccurate information.

    Recommendation No. 9: We recommend that USAID/Honduras, in conjunction
    with its implementing partners, develop and implement a system to reasonably
    ensure that reported information is accurate.




                                                                                         18
Performance Management Plan
Needs to Be Improved

Summary: ADS 203.3.3 establishes a requirement for USAID missions to develop
performance monitoring plans (PMP). Also, ADS section 203.3.4.6 requires that
missions update PMPs regularly with new performance information. USAID/Honduras
has not established performance targets for the last three years of the program for three
of the six performance indicators in the PMP, and the PMP has not been updated with
actual performance information since the program began. This occurred because the
emphasis on reporting on standardized performance indicators that accompanied the
introduction of the “F process” led the mission to place somewhat less emphasis on
monitoring of some of the performance indicators that had already been established under
the democracy and governance program. As a result, the PMP plan was not as useful a
monitoring tool as it could have been.

USAID policies establish several requirements applicable to performance management
plans. ADS 203.3.3 states that operating units must prepare a complete performance
management plan for each strategic objective. ADS Section 203.3.4.5 states that each
indicator should include a performance baseline and set performance targets that can
optimistically but realistically be achieved within the stated timeframe and with the
available resources. According to USAID TIPS No. 8, program performance targets
should be based on careful analysis of what is realistic to achieve, given the conditions
within the country and other factors. ADS section 203.3.4.6 requires that missions
update PMPs regularly with new performance information, usually as part of the annual
portfolio review process.

However, USAID/Honduras has not established performance targets for the last three
years of the program for three of the six performance indicators in the PMP, and the
PMP has not been updated with actual performance information since the program
began. Similar issues exist at lower levels within the democracy and governance
program. For example, as indicated on page 7, 14 performance indicators from the
strategic objective agreement were not tracked by the mission. Also, as indicated on
page 8, no performance targets were set for eight of the performance indicators in the
cooperative agreement with FOPRIDEH.

The introduction of the new operational plan and the associated emphasis on reporting
lower-level output indicators to the F Bureau distracted mission officials, to some degree,
from setting targets and reporting on higher-level results indicators such as those found
in the PMP.

As a result, the PMP was not as useful a monitoring tool as is envisioned by USAID policy.

   Recommendation No. 10: We recommend that USAID/Honduras, in conjunction
   with its implementing partners, develop a performance management plan for the
   follow-on democracy and governance program that meets USAID policy
   requirements.




                                                                                         19
EVALUATION OF
MANAGEMENT COMMENTS
Although USAID/Honduras raised some issues with the report findings in our draft report,
the mission generally agreed with the report recommendations. The most significant
issues raised by the mission are summarized below, together with our responses:

•   The mission agreed with our finding that assistance to raise municipal revenues
    without improving municipal services is unlikely to result in sustainable governance
    improvements, but it noted that the finding in our draft report did not provide adequate
    context for the finding. We agree with this observation and we have added a
    clarification to indicate that only 1 of the 14 performance measures in the contract
    dealt with increasing municipal revenues and service coverage.

•   While the mission was aware of deficiencies in accounting for cost-sharing
    contributions by the Federation of Honduran Nongovernmental Organizations
    (FOPRIDEH), it expressed some disagreement with our finding and one of our
    recommendations on this issue. The mission noted that non-federal auditors have
    disclosed related issues and that the relevant audit recommendations have been
    closed with the concurrence of our office. In response, we would like to point out that
    the non-federal auditors reviewed but did not audit the cost-sharing schedules. The
    scope of a review is more limited than the scope of an audit, and reviews are based
    primarily on inquiry and application of analytical procedures. Moreover, addressing
    previous observations by non-federal auditors in no way implies that required cost-
    sharing contributions have been made or properly accounted for. In fact, the results
    of our current audit indicate that FOPRIDEH reported contributions of $376,856
    cannot be verified from its records. In addition, there is some doubt whether
    FOPRIDEH can make all of the required contributions, since to meet the requirement
    FOPRDIEH will have to contribute $555,602 in the last year of the project, much
    more than it contributed during the first three years of the project combined.

•   In commenting on appendices III, IV, and V, which compare planned and actual results
    for the strategic objective agreement, FOPRIDEH, and Management Sciences
    International (MSI), the mission stated that these appendices contained inaccurate
    information. The mission also provided some information in accomplishments after the
    period covered by these appendices; i.e., after the end of FY 2008. After reviewing the
    mission’s comments on appendices III and IV, we have satisfied ourselves that the
    information they contain is accurate. In reviewing appendix V, we found several
    inaccuracies in our draft report related to FY 2007 performance targets, and have
    corrected the errors in this final report.

•   The mission pointed out that our finding on the performance management plan (PMP)
    incorrectly stated that the mission had not established performance targets for any of
    the PMP performance indicators. In fact, all of the performance indicators had
    performance targets, although three of the six indicators did not have performance




                                                                                         20
      targets for the last three years of the program. 10 Furthermore, the mission provided
      some background information indicating that the emphasis on standardized
      performance indicators that accompanied the introduction of the “F process” led the
      mission to place somewhat less emphasis on monitoring of some of the performance
      indicators that had already been established under the democracy and governance
      program.

•     USAID/Honduras also asked for clarification on what is meant by “transformational
      change.” The concept of transformational development, which underlies the foreign
      assistance framework and USAID’s programming policy, is not defined in writing in
      USAID’s ADS glossary or in any other USAID document that we are aware of. The
      State-USAID foreign assistance framework categorizes countries receiving U.S.
      Government assistance as rebuilding, developing, transforming, or sustaining
      partnership countries, and our understanding is that transformational development
      means that USAID’s programs, in conjunction with other donor programs and host
      countries’ own efforts, will help countries move up through this progression during
      some foreseeable timeframe. In other words, transformational development involves
      significant national-level change. 11

While the most important issues raised by the mission are summarized above, the
mission’s comments include many other significant observations and clarifications, and
the comments in their entirety are presented in appendix II.




10
     The mission stated that targets were not established for the full program period because the
     indicators were dropped after a partial termination due to budget reductions. We are not
     certain that this explanation is correct, since the PMP is dated January 2005 and the partial
     terminations did not occur until the latter part of FY 2006.
11
     USAID’s focus on transformational development perhaps began with the white paper that was
     presented at an October 2003 mission director’s conference (“U.S. Foreign Aid: Meeting the
     Challenges of the Twenty-First Century”), and the intention to accomplish transformational
     development has been formalized more recently in USAID’s “Policy Framework for Bilateral
     Foreign Aid: Implementing Transformational Diplomacy Through Development” (January
     2006), the foreign assistance framework, and the Joint State-USAID Strategic Plans for Fiscal
     Years 2004 – 2009 and 2007 – 2012.


                                                                                               21
                                                                           APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this performance audit in
accordance with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. The purpose of the audit was to
(1) determine if USAID/Honduras’ democracy and governance program achieved
planned results and assess its impact and (2) determine whether USAID/Honduras’
reporting on the program provided stakeholders with complete and accurate information
on the progress of the activities and the results achieved.

In planning and performing the audit, we assessed the mission’s controls related to its
democracy and governance activities. The management controls identified included the
mission performance management plan, mission data quality assessments, cognizant
technical officer, site visits, program progress reports, day-to-day interaction between
mission staff and program implementers, and the mission’s annual self-assessment of
management controls as required by the Federal Managers’ Financial Integrity Act of
1982.

The audit was conducted in Honduras, in the cities of Tegucigalpa, Tela, Masica, Puerto
Cortes, Villanueva, San Francisco, Naranjito, and La Entrada, from January 9 to January
30, 2009. Our audit primarily focused on democracy and governance program activities
during fiscal years 2007 and 2008.

Methodology
In order to assess whether results were achieved, we made use of the performance
indicators included in the strategic objective agreement and individual contracts and
cooperative agreements. We interviewed officials from USAID/Honduras, the three lead
organizations under the original cooperative agreements, seven sub-partners, the U.S.
Embassy, the Millennium Challenge Corporation, the World Bank, and the European
Union. We reviewed relevant documentation produced by USAID/Honduras, such as
the performance management plan, the operational plan and performance reports, and
award documents. We also reviewed partner documentation such as annual work plans
and progress reports. We reviewed partner and sub-partner documentation, such as
participant training lists and materials, to substantiate reported accomplishments.

In order to determine whether accurate and complete information was reported, we
interviewed mission and implementing partner personnel and reviewed documentation to
determine how results are collected for the selected indicators. We validated the
reported results for fiscal years 2007 and 2008 by comparing reported results with the
records maintained at the offices of the implementing and sub-partners and the auditors’
observations during field visits.




                                                                                     22
                                                                              APPENDIX II



MANAGEMENT COMMENTS
April 29, 2009


Timothy E. Cox
Regional Inspector General
San Salvador, El Salvador


Subject: Comments on the Draft Report of the Audit of USAID/Honduras’s Democracy
         and Governance Program (Report No. 1-522-09-XXX-P)

Dear Mr. Cox:

Thank you for allowing us the opportunity to review the subject draft report and for the
professional and cooperative way in which this audit was conducted. Following are our
comments on the results of the audit and on the report’s recommendations.

Audit Findings:

The seven main audit findings included in the report warrant the following clarification.

1.    The Program’s Transformational Impact Was Eroded by a Budget Cut and
     Other Factors

The narrative attached to this audit finding reasonably describes the difficult budgetary
and strategic decisions confronted by the Mission since the development of the previous
strategy, and how original expectations were adjusted to changing circumstances. While
the Mission always aspires to have a significant impact with its programs, budgetary
uncertainty, shifting priorities, and political issues often qualify expectations. For
example, until just recently, the Mission expected to receive approximately $9.6 million in
FY 2009 funds to support democracy and governance initiatives (this figure is
anticipated in the audit report), however the actual amount was $4.5 million. The
Mission has a planning budget for FY 2010 of $11.9 million for democracy and
governance (and a similar level for FY 2011), and we will be obliged to plan for this level
until the budget is finalized, likely more than halfway through the fiscal year. This does
not mean we cannot hope to achieve something significant with the funds we receive,
but it does highlight the difficulty of guaranteeing any sort of transformational change.

2.     Increasing Municipal Revenues Without Improving Services Will Not
     Sustainably Improve Governance

While the Mission agrees with the premise of this finding, the accompanying audit
narrative misrepresents the focus of USAID’s task order with MSI, the focus of which
was transparency and oversight and not increased local revenues and service delivery.
On March 28, 2006 the GTAG task order was decreased from $13,801,958 to
$9,185,585. In doing so, both parties agreed to revise the scope of work to accurately
reflect the change in the budget. In the revised scope of work there were seven results


                                                                                            23
proposed under section A.4.11. The actual scope of GTAG focused on greater
transparency and accountability in local government, which is demonstrated through the
objectives of the seven proposed results. Only Result 1: Increased capacity by
government entities to fulfill their roles effectively and transparently and to engage
organized civil society in advancing common development goals had an indicator that
focused on tax revenue. Indicator 1 of Result 1 focused on increasing municipal tax
revenue to demonstrate annual achievement of performance targets. However, all of the
other indicators for Result 1 and the subsequent Results focus on transparency in local
government and civil society, good governance, government oversight and
accountability, transparent transitions between local government administrations, etc.

3. Sustainability of Assistance to Municipalities is not Assured.

While the sustainability of technical capacity established through assistance provided to
municipalities is not assured through the transition after each election cycle, the Mission
has taken several steps to mitigate the loss of technical capacity.

During the 2005 to 2006 electoral cycles, USAID implemented an electoral transition
program for 31 pre-selected municipalities in Honduras that had previously
demonstrated political will and a commitment to municipal development. The three-part
program incorporated civil society oversight into every aspect of the program in order to
improve the accountability and transparency of the transition process between outgoing
and incoming administrations.

The first phase included having all mayors and mayoral candidates sign pacts
committing themselves to the program’s guidelines. Trusted members of local civil
society also signed the pacts as witnesses. After the elections, the second phase began
with the transfer of all relevant municipal information to newly elected officials. These
officials then drafted and signed municipal work plans for the early stages of their terms.
Finally, in the last stage of the transition process, civil society monitored and evaluated
the general performance during the first months of the new administrations, especially in
the area of basic public services.

The results of the electoral transition process were very positive. In the past, basic
services were interrupted and public information was not readily turned over to the new
administration. Under the new program, these issues were overcome. Approximately 65
percent of municipal technicians kept their jobs after the transfer of authorities
(compared with 48 percent in non-participating municipalities). The program developed a
political transition manual, which became a national standard approved and used by the
government in all municipalities nationwide. Additionally, local citizens for the first time
played a critical role in the transfer of authority in the 31 participating municipalities.

At the national level USAID has supported and strengthened the ability of the Honduran
Municipal Association (AMHON) to advocate for and to promote reforms to the
Honduran legal framework needed to strengthen municipal autonomy and capacity.
Important legal reforms to address retention of municipal technical staff have been
promoted, such as the Civil Municipal Service Law. In addition, AMHON will continue to
provide support in activities related to political transition in local governments before and
after the 2009 general election.




                                                                                          24
4. FOPRIDEH Cost Sharing is Not Supported

The Mission is aware of this issue. Cost-share has been addressed in the last two
audits of FOPRIDEH’s cooperative agreement through findings regarding percentage of
cost share and tracking/support documentation concerns. To date, only two audits have
been performed of the four year agreement; however, both audits have had all their
recommendations closed with RIG’s concurrence.

The first audit covered FY06 and identified a 25% shortfall of the annual target. Given
that the cooperative agreement established the cost share for the entire life of the
program, FOPRIDEH is responsible for the full amount until the end of the 4-year
agreement in September 30, 2009. The second audit, which covered a 15-month period
ending in December 2007, established that FOPRIDEH exceeded the expected cost-
share by 11.6%, however there were short-comings in how FOPRIDEH was
documenting these costs. FOPRIDEH subsequently changed its tracking method and
the finding was closed. The next audit is currently underway for calendar year 2008
which includes a follow-up of FOPRIDEH’s record-keeping practices regarding cost-
share based on the previous audit recommendation.

5. Partners Should Assess Effectiveness of Training

No comment.

6.     Data Reporting Needs to be Strengthened

Appendices III, IV, and V of the audit report do not accurately convey information
regarding indicator information collected by the DG Office’s implementing partners and
subsequently reported to USAID/DG. For the audit fieldwork the Mission provided all
requested and relevant documentation. However, it does not appear that data reporting
that is included in this documentation is accurately and completely reflected in the
Annexes to the audit report. For example, Appendix III reflects “not available” for several
indicators which were included in FIU’s final report consolidated data by indicator as per
the contract requirements. Below an excerpt from page 29 of said report:

                                           Table 13
                     Number of solved cases reaching the Trial Courts 2004- 2007

Type                                                            October - September
                            2004- 2005             2005- 2006              2006- 2007
Number of cases brought 6,892                      6,824                   7,765
before Trial Courts
Number of cases brought to 909                     956                     780
trial
Number of cases resolved 3,262                     3,627                   3,122
using alternative measures
Percentage       of   cases 13%                    14%                     10%
brought to trial
Percentage       of   cases 47%                    53%                     44%
resolved using alternative
measures



                                                                                        25
Similarly, in Appendix IV the report mentions “FOPRIDEH did not undertake any specific
activities related to this indicator” for areas pertaining to electoral issues which began in
FY09 given that the Honduran Primaries took place in November 2009. For example, for
the indicator “Percentage of new TSE Magistrates and RNP Directors selected in
compliance with the Electoral Law” refers to an activity that will take place in May 2009.
Other election-related activities have been deleted due to a 50% budget reduction to the
final year of implementation. FOPRIDEH is also implementing activities in other areas
that are still underway and must be completed by the end of the agreement; therefore
the indicator stating “90 percent of regional and interest-based commissions support the
activities of the Democratic Process Strengthening Project” would be reported in
September 2009 as the work plan indicates.

Also, with regard to the indicators selected in Appendix III, which come from the
Amplified Description of the SOAG, MSI was not instructed to specifically report on these
illustrative indicators. However, through USAID funds, the DG program has achieved
results. For example, in the indicator Sub-IR 2.4 Increased management capacity to
deliver local government services, USAID through its contract with MSI has completed
five water and sanitation systems, and using project designs provided by MSI, five
additional systems are currently being implemented by FHIS using local currency funds.
Furthermore, MSI has also provided seven additional project designs, and currently
USAID is evaluating the possibility of funding these activities under local currency. With
regard to Appendix V, many targets and results have been reported inaccurately. We
recommend that the auditors refer to the following MSI documents: Modifications #5 and
#8 to the MSI contract dated June 29, 2006 and February 28, 2008, and Semi Annual
Report #8 dated January 30, 2009.

7. Performance Management Plan Needs To Be Improved

The Mission takes exception to the statement on page 19 of the report, “USAID
Honduras has not established performance targets for any of PMP performance
indicators.” The Mission would like to clarify that all six of the DG program PMP
indicators contained established targets. Three of the six PMP indicators contained
targets through FY 2006, while the remaining three contained targets through FY 2009.
Targets for the former were not established beyond FY 2006 because the indicators
were dropped as a result of the partial termination of the contracts due to budget cuts.
Also, while the physical PMP Performance Indicator Reference Sheets were not
updated, the Mission continued to monitor progress via the annual portfolio review
process.

The audit tried to answer the question of whether the USAID/Honduras’ Democracy and
Governance program achieved planned results and what has been the impact. While we
recognize the importance of this type of outcome/high-level impact evaluation, we ask
that the Agency-wide impact that the F process reforms have had on Agency policy
regarding program design, performance reporting and impact evaluation be taken into
account.

For example, the new “F process” required that Missions begin using output indicators
related to the “Foreign Assistance Standardized Program Structure and Definitions” for
all reporting through the Operational Plan and Performance Report. The FY 2007
Operational Plan guidance, dated October 27, 2006, on page 5 states:


                                                                                          26
“Now, the Framework and associated standardized definitions will provide the
fundamental structure by which funds will be programmed and progress tracked, with all
foreign assistance resources allocated according to those common definitions and
related standard indicators.”

This same citation goes on to say that “the indicators that will be included in the
Operational Plan for targeting by Operating Units are only those at the program level
which are attributable to USG resources” (i.e., the output indicators inserted into the
Operational Plan by F). F would independently collect data on outcome and impact
indicators from secondary sources. Section B of “Guidance on F Indicators”, dated
December 26, 2006 states:

“Data for the indicators at the objective and area level are usually available from
secondary sources; they will be gathered by F and entered into the FACTS database.”

[Note: Current guidance on OP indicators can be found in the “Guidance Annex for FY
2008 Operational Plan, Phase II”, which can be accessed at:
http://inside.usaid.gov/A/F/docs/plan/guidance/2008OPAnnexes_UPDATED_FINAL.pdf.]

During this initial transition to the new F process, the future of PMPs (and much of the
rest of existing ADS guidance) remained in doubt. However, while the Mission
continued using many of the outcome indicators shown in our Performance Monitoring
Plans as an internal tool for program management purposes, the primary emphasis of
the Mission’s efforts understandably became focused on monitoring and reporting to
Washington on the dozens of output indicators contained in the Operational Plan and
Performance Report. Some of the discrepancies found between the Program’s reported
results and those that the auditors could verify is reflective of how retrofitting the
common Operational Plan indicators onto an existing program did not always result in a
perfect match between what the implementer was trying to achieve and the definition of
the best available common indicator.

Audit Recommendations:

While we have raised some issues with the main findings of the report, we do generally
concur with the specific recommendations made in the report. They are a timely
reminder to revisit and reinforce our Mission’s performance management processes as
we enter into a new strategy cycle.

Recommendation No. 1: We recommend that USAID/Honduras extend the current
democracy and governance program to provide an opportunity to negotiate the
scope of the follow-on program with the administration that will take office in
January 2010.

The Mission concurs with this recommendation. The Mission has already submitted a
request to extend its current strategy through FY 2010. That request is pending in
USAID/LAC. If granted, the extension would facilitate negotiation of the follow-on
program with the incoming government. Also, the DG SOAG has been extended for one
year through FY 2010 to allow for completion of ongoing activities and sufficient overlap
with activities under the new Assistance Agreement.



                                                                                      27
Recommendation No. 2: We recommend that USAID/Honduras explicitly focus the
follow-on program on reforms that have the potential to accomplish
transformational change in the quality of governance.

The Mission requests clarification on the meaning of transformational change in the
USAID context and the timeframe during which this change should be achieved. This
clarification will assist us as we design a new Democracy and Governance program,
through which we hope to help Honduras progress in its democratic development. While
the Mission always strives to achieve a significant impact with the assistance provided, a
really profound development change may be achieved only over decades and is
dependent on funding, strategy, foreign policy considerations, and political will. For
example, only a decade ago Honduran citizens did not voice publicly allegations of
corruption and demand reforms for more transparency and accountability. Today,
citizens, whether individually or collectively, can openly voice such opinions and
demands. This change, achieved in part with USAID assistance, represents important
progress for Honduras. Looking ahead to the new strategy period, the DG Office
conducted a number of assessments and evaluations in the last couple of years that
have informed the Mission of areas in which we should focus and will assist us in the
design of new activities under the new program.

Recommendation No. 3: We recommend that USAID/Honduras include assistance
to improve municipal services in its follow-on program if the program includes
efforts to increase municipal revenues.

The Mission concurs with this recommendation. We are currently designing a new local
government and decentralization activity that will focus more on improved services. The
goal of the program will be to strengthen Honduran democracy in targeted municipalities
or service areas by increasing citizen satisfaction with and participation in decentralized,
democratic government-provided or -regulated services through improved service
delivery; increased local government capacity to oversee decentralized services and
respond to citizen feedback; and an improved national framework for the
decentralization of authority and resources.

Recommendation No. 4: We recommend that USAID/Honduras include steps to
support passage and implementation of the Municipal Civil Service Law in its
follow-on program.

The Mission concurs with this recommendation. Currently, AMHON with USAID support
is promoting efforts to pass a Municipal Civil Service Law. The current cooperative
agreement with AMHON is expected to be extended to allow for additional activities,
including promotion and implementation of the Municipal Civil Service Law. Target date
for the extension is September 30, 2009.

Recommendation No. 5: We recommend that USAID/Honduras ask Management
Systems International to make electronic copies of manuals, procedures, and
records developed in each assisted municipality to be presented to each
municipality’s incoming mayor after the 2009 election to promote continuity and
an orderly transition.

The Mission concurs with this recommendation. MSI has already provided printed and
electronic copies of manuals, procedures, and records to AMHON for distribution to all


                                                                                         28
298 municipalities in Honduras and relevant Ministry of Governance and Justice officials
after the political transition in January 2010. Thus, this recommendation should be
closed upon report issuance.

Recommendation No. 6: We recommend that USAID/Honduras determine the
allowability of $376,856 in unsupported cost sharing contributions and recover
from the Federation of Honduran Nongovernmental Organizations any amounts
determined to be unallowable.

The Mission does not concur with this recommendation. As mentioned before, there
have been two audits under the FOPRIDEH agreement which addressed cost-sharing
issues; however all recommendations have been addressed by the grantee, and the
Mission has closed the findings with RIG’s concurrence. No financial audits have
identified unsupported cost findings for the amount stated in the audit report, and the
findings regarding weak supporting documentation have been subsequently closed.

The Mission has committed itself to work with FOPRIDEH to ensure that adequate
support documentation and proper record-keeping is maintained for the remainder of the
cost share schedule through the life of the program. It is important to note that the total
estimated cost of the agreement was reduced from $4.2 M to $3.7 M in the last
modification, and therefore the cost share amount has also been reduced to a total of
$932,548 for the entire four years. To date, FOPRIDEH has already accounted for
$658,485 (70%) with the balance of $274,063 to be completed between 2008 and the
first nine months of 2009. The audit for 2008 is underway and will be subject to Mission
and RIG approval, which would then provide an opportunity to determine if FOPRIDEH
has complied with the recommendations from pervious year audits and identify any
potential risks in the case that FOPRIDEH could not comply with the total amount.

Recommendation No. 7: We recommend that USAID/Honduras verify that the
Federation of Honduran Nongovernmental Organizations has a viable plan for
meeting required cost sharing contributions during the last year of the program.

The Mission concurs with this recommendation. We will verify that the Federation of
Honduran Nongovernmental Organizations implements a plan for meeting required cost
sharing contributions by September 30, 2009.

Recommendation No. 8: We recommend that USAID/Honduras, in coordination
with its implementing partners, establish procedures for systematically following
up with training participants to assess the impact and effectiveness of training.

The Mission concurs with this recommendation. During the design stage of new
activities, we will establish procedures for following up with training participants to
assess the impact and effectiveness of training.

Recommendation No.9: We recommend that USAID/Honduras, in conjunction with
its implementing partners, develop and implement a system to reasonably ensure
that reported information is accurate.

The Mission concurs with this recommendation. The Mission will establish and/or
reinforce existing procedures requiring AOTR/COTRs to periodically verify results
reported by partners under our new Country Assistance Strategy (CAS). The results of


                                                                                        29
these revisions will be documented and kept in the AOTR/COTR’s program files.

Recommendation No.10: We recommend that USAID/Honduras, in conjunction
with its implementing partners, develop a performance management plan for the
follow-on democracy and governance program.

The Mission concurs with this recommendation. We will develop a PMP for any new
Democracy and Governance program(s) developed under our new Country Assistance
Strategy (CAS). Once completed, this documentation will be available through the DG
office.




William Brands,
Mission Director




                                                                                30
                                                                                    APPENDIX III


Strategic Objective Agreement Indicators and Results

Indicator                         Target                         Achieved Through FY 2008

Strategic Objective: More
responsive, transparent
governance.

Trial court performance:

• Percentage of cases             • Four percentage point        • From 55 percent in FY
  reaching trial that are           increase by FY 2006.           2005, the percentage of
  concluded.                                                       cases concluded fell to 49
                                                                   percent in FY 2006, then
                                                                   rose to 64 percent in FY
                                                                   2007.

• Percentage of cases that        • No target established.       • Not available.
  are concluded within
  stipulated time period.

• Percentage of cases             • No target established.       • From 55 percent in FY
  resulting in guilty verdicts.                                    2005, the percentage of
                                                                   cases resulting in guilty
                                                                   verdicts rose to 63 percent
                                                                   in FY 2006, then fell to 61
                                                                   percent in FY 2007

Changes in user                   Four percentage point          Citizen confidence in key
assessments of                    improvement by FY 2006.        government agencies has
responsiveness/service                                           fallen from 2004 to 2006 and
quality of key government                                        from 2006 to 2008.
agencies.
Intermediate Result (IR) 1
Strengthened Rule of Law

Efficiency of judicial sector     No target established.         Not available.
(e.g., case processing time)

Percentage of corruption          No target established.         Not available.
cases brought to trial

Percentage of corruption          No target established.         Increased from 4 percent in
cases with verdict rendered.                                     FY 2005 to 18 percent in FY
                                                                 2006.
Sub-IR 1.1 Legal framework
for fair trials before
independent and impartial
courts implemented

American Bar Association          Score of “positive” on 15 of   Not available.
Judicial Reform Index             30 indicators by FY 2006.

Index/indicators showing          No target established.         The Civil Procedures Code
progress toward                                                  was passed in January 2007



                                                                                                 31
Indicator                         Target                           Achieved Through FY 2008

implementation of new Civil                                        but implementation will not
Procedures Code.                                                   begin until May 2009.
Sub-IR 1.2 Increased fairness
and efficiency of the
administration of justice
through more effective legal
personnel and processes
American Bar Association
                                  Score of “positive” on 15 of     Not available.
Judicial Reform Index
                                  30 indicators by FY 2006.
Increased number of persons
                                  4,646 people trained and         3,086 people trained.
and person-days of training.
                                  2,850 person-days of training
                                  during life of project.
Increased number of oral
                                  700 oral trials by March 2006.   481 oral trials were
criminal trials under the CPC.
                                                                   completed in FY 2005 and
                                                                   1,149 were completed in FY
                                                                   2006.
Increased number of criminal
                                  6,000 cases closed by March      4,574 cases were closed in
cases closed through
                                  2006, 10,000 cases closed by     FY 2005, a cumulative 9,073
prosecutorial discretion.
                                  September 2007.                  cases were closed by FY
                                                                   2006, and a cumulative 13,
                                                                   168 cases were closed by FY
                                                                   2007.
Sub-IR 1.3 Access to
justice    expanded    for
marginalized       groups,
especially women and the
poor.
Index/indicator demonstrating
                                  No target established.           Not available, but alternative
benchmarks towards
                                                                   dispute resolution centers
implementation of alternative-
                                                                   were established in seven
dispute resolution in one to
                                                                   municipalities.
two pilot courts.

American Bar Association
                                  Positive score on 12 of 24       Not available.
Legal Profession Reform
                                  indicators by March 2007.
Index.
Sub-IR 1.4 Strengthened
advocacy and participation in
legal reform.

Increased number of civil         Two civil society                Four civil society
society organizations             organizations by March 2007.     organizations reportedly
engaged in programs to                                             promoted legal reform.
promote legal reform.

Number of policies/laws           Four laws passed by FY           Two laws, the new Civil
passed or changed consistent      2006.                            Procedures Code and the
with agenda of justice-sector                                      Transparency Law, were
civil society organizations (or                                    passed. In addition, USAID’s



                                                                                                    32
Indicator                        Target                         Achieved Through FY 2008

proposed negative changes                                       partners helped defend
defeated).                                                      against a reversal of electoral
                                                                reforms.

Index/indicator demonstrating    No target established.         Not available.
benchmarks towards
implementation of electoral
reform based on democratic
principles.

American Bar Association         Positive score on two          Not available.
Legal Profession Reform          indicators by November 2005.
Index.
IR 1.2 Greater transparency
and accountability of
governments

Total resources managed by       No target established.         Not available.
local government as
percentage of total public
resources.
Sub-IR 2.1 More transparent
systems for management of
public resources by selected
government entities
Number of audits published       No target established.         DASM published 59 audits in
by the Tribunal Superior de                                     2005, 78 in 2006, 138 in
Cuentas’ Directorate of                                         2007, and 121 in 2008.
Municipal Audits (DASM) and                                     UAPOI published 5 audits in
the Unit for Audits of                                          2005, 4 audits in 2006, 2
Programs of International                                       audits in 2007, and 4 audits in
Organizations (UAPOI).                                          2008.
Sub-IR 2.2 Increased
devolution of responsibilities
and resources to the local
level, resulting in greater
responsiveness by local
governments to citizens’
needs

Percentage of the national       No target established.         Not available, but
budget that is transferred to                                   stakeholders report that 5
municipalities.                                                 percent of the national budget
                                                                is transferred to
                                                                municipalities.

Average stage on                 No target established.         Not available.
decentralization process
milestone scale.
Sub-IR 2.3 More effective
advocacy, oversight and
participation in local
government decision-making.



                                                                                                  33
Indicator                      Target                            Achieved Through FY 2008

Citizen perception survey on   Two percentage point              Polling shows declines in
government effectiveness       improvement during life of        citizen confidence in
and transparency.              project.                          municipal governments from
                                                                 56 percent in 2004 to 46
                                                                 percent in 2008, while
                                                                 citizens that have had contact
                                                                 with municipal governments
                                                                 report an increase in bribery
                                                                 of municipal officials over the
                                                                 same period, from 10 percent
                                                                 of respondents in 2004 to 17
                                                                 percent of respondents in
                                                                 2008.
Sub-IR 2.4 Increased
management capacity to
deliver local government
services.

Percentage of citizens with    No target established.            Access to potable water
access to basic municipal                                        increased 4 percent and
services (household water                                        access to trash collection
and sanitation, and solid                                        increased by 17 percent in
waste removal).                                                  assisted municipalities in FY
                                                                 2007. (These increases were
                                                                 not a result of USAID-
                                                                 financed assistance.)

Percentage of total local      Two percent real increase         For assisted municipalities,
revenue generated by local     during the life of the project.   the percentage was 47
governments.                                                     percent in 2006, 41 percent in
                                                                 2007, and 42 percent in 2008.

Number of municipalities in    No target established.            Not available.
compliance with financial
requirements established in
the Municipal Law.




                                                                                                   34
                                                                          APPENDIX IV


Planned and Reported Results for FOPRIDEH for FY 2007 and FY 2008.

Indicators                                      Results
Percentage of constitutional issues upheld      No specific activities related to this
according to international standards.           indicator were undertaken by FOPRIDEH,
                                                although FOPRIDEH was closely involved
                                                in monitoring the nomination process for
                                                supreme court magistrates in 2008 and
                                                2009, an important constitutional issue.
Percentage of the CSO’s legislative             FOPRIDEH influenced passage of the Civil
agenda, i.e., new laws/bylaws or reforms        Procedures Code in January 2007 and the
to existing laws/bylaws, enacted.               Transparency and Access to Public
                                                Information Law in November 2006.
                                                FOPRDIEH also helped draft the Organic
                                                Law for the Judicial Branch.

Monitoring of the performance of the            FOPRIDEH did not undertake any specific
Supreme Electoral Tribunal (TSE) and            activities related to this indicator.
National Registry of Persons (RNP) has
been carried out 100% (according to the
monitoring plan) to verify the fulfillment of
legal responsibilities.
Percentage of new TSE Magistrates and           FOPRIDEH did not undertake any specific
RNP Directors selected in compliance with       activities related to this indicator.
the Electoral Law.
Percentage of Civil Society                     FOPRIDEH did not undertake any specific
recommendations generated from previous         activities related to this indicator.
elections enacted.
At least 50 percent of voting booths have       FOPRIDEH did not undertake any specific
been covered by national observers.             activities related to this indicator.
At least 80 percent of voting centers have      FOPRIDEH did not undertake any specific
been covered by national observers.             activities related to this indicator.
Monitoring of the primary and general           FOPRIDEH did not undertake any specific
elections to determine true effectiveness of    activities related to this indicator.
the electoral reforms through the
application of the application of the new
electoral law.
Percentage of registered voters that vote.      FOPRIDEH did not undertake any specific
                                                activities related to this indicator.
Number of non-partisan volunteers               FOPRIDEH did not undertake any specific
participating in the electoral process to       activities related to this indicator.
ensure a free, fair, and credible outcome.
Increased representation of small political     FOPRIDEH did not undertake any specific
parties in Congress and local                   activities related to this indicator.
governments.
Increased representation of small political     FOPRIDEH did not undertake any specific
parties in Congress and local                   activities related to this indicator.
governments.
Increased satisfaction with GOH as              FOPRIDEH did not undertake any specific
measured by the CAM regional DG survey.         activities related to this indicator.



                                                                                     35
Indicators                                  Results
85 percent of the Unity and Strategic       FOPRIDEH did not undertake any specific
Strengthening Plan designed by              activities related to this indicator.
Management Systems International (MSI)
has been executed.
90 percent of regional and interest-based   FOPRIDEH did not undertake any specific
commissions support the activities of the   activities related to this indicator.
Democratic Process Strengthening Project.




                                                                                36
                                                                                      APPENDIX V


Planned and Reported Results for Decentralization Assistance through MSI

Indicator                     FY 2007     FY 2007      FY 2007    FY 2008     FY 2008      FY 2008
                               Target     Reported     Verified    Target     Reported     Verified
Number of larger 12             NA           13          13         NA           12          12
municipalities able to
demonstrate annual
achievement of
performance targets to
administer/manage
municipal programs
(cumulative).
Number of smaller                NA          13           13         NA          13           13
municipalities able to
demonstrate annual
achievement of
performance targets to
administer/manage
municipal programs
(cumulative).
Number of smaller                30           7           9          NA           9           0
municipalities able to
demonstrate annual
achievement of
performance targets to
increase municipal tax
revenue and coverage of
municipal services.
Number of smaller                30           0           0          10          10           10
municipalities in targeted
municipal associations
meeting performance
targets in public
administration practices.
Number of larger                 10          15           15         10          15           15
municipalities meeting
their performance goals
in the procurement of
works, goods, and
services.
Number of smaller                10          13           13         10          13           13
municipalities meeting
their performance goals
in the procurement of
works, goods, and
services.
Number of municipal              10           5           5           5           5           5
associations meeting
their performance goals

12
     In this report, “larger” municipalities are those classified by the Ministry of Governance and
     Justice as A municipalities (annual budget above $317,000) or B municipalities (annual budget
     between $79,000 and $317,000).            “Smaller” municipalities are those classified as C
     municipalities (annual budget between $21,000 and $79,000) or D municipalities (annual
     budget below $21,000). Based on an exchange rate of 18.9 Honduran Lempiras to $1.


                                                                                                  37
Indicator                    FY 2007   FY 2007    FY 2007    FY 2008   FY 2008    FY 2008
                              Target   Reported   Verified    Target   Reported   Verified
in the procurement of
works, goods, and
services.
AMHON board decisions         75%        89%       89%         NA        NA         NA
implemented by the
technical team and
documented back to the
board.
Amount of resources          $75,000      0          0       $25,000    $6,542    $6,542
(cash or in-kind)
leveraged from private
sector for increasing
good governance and
ethnical business
practices.
Number of decisions in         90        82         82         60        141        141
larger municipalities with
impact on local
development where
participation of broad-
based coalitions can be
documented.
Number of decisions in         90        117        117        60        147        147
smaller municipalities
with impact on local
development where
participation of broad-
based coalitions can be
documented.
Number of larger               15        10         10         10        11         11
municipalities where
broad-based coalitions
are annually monitoring
performance of their local
governments.
Number of smaller              15        13         13         10        13         13
municipalities where
broad-based coalitions
are annually monitoring
performance of their local
governments.
Small infrastructure          50-80       0          0        40-55      17          0
projects.




                                                                                         38
                                                                                   APPENDIX VI


Planned Life of Agreement Results and Reported Results for FY 2008 for
Decentralization Assistance Through AMHON

                   Indicator                                     FY 2008 Results
Political advocacy strategy disseminated and     A strategy was developed that incorporates
discussed with stakeholders.                     input from municipalities in 16 of 18
                                                 departments of Honduras.
AMHON, Congress and Ministry of                  Numerous discussions were held between
Governance and Justice establish a forum to      AMHON and Congressional representatives
review and propose reform of the Municipal       on the proposed Municipal Law and the
Law.                                             proposed Municipal Civil Service Law.
Proposal to reform the Municipal Law             A draft of the proposed reform to the
submitted to Congress.                           Municipal Law was submitted to Congress.
Registry of municipal income, expenses and       No activities directly related to this indicator
investments of the 298 municipalities            have been undertaken, although AMHON has
established.                                     prepared some training materials that are
                                                 designed to strengthen local management
                                                 capabilities.
Accreditation and reward system for municipal    No activities directly related to this indicator
management implemented.                          have been undertaken because other
                                                 activities had higher priority.
30 municipalities and 10 municipal               A decentralization work plan was developed
associations efficiently executing a             and discussed with stakeholders.
decentralized project cycle for infrastructure
projects.
Increased confidence and knowledge of            Work plans have been developed, plans have
membership regarding AMHON’s activities          been discussed with government and civil
and effectiveness.                               society organizations, and AMHON has
                                                 signed agreements with the National
                                                 Autonomous University of Honduras to
                                                 provide training to municipal employees.




                                                                                                    39
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
